HHS/OIG, Audit - "Review of Training Costs for Title IV-E Foster Care and Adoption
Assistance Programs in Connecticut for State Fiscal Years 2002 Through 2004," (A-01-05-02502)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Training Costs for Title IV-E Foster Care and Adoption
Assistance Programs in Connecticut for State Fiscal Years 2002 Through 2004," (A-01-05-02502)
July 31, 2006
Complete
Text of Report is available in PDF format (437 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Department of Children and Families (the State agency)
properly claimed Federal reimbursement at the enhanced rate for Title IV-E training costs
during our audit period of July 1, 2001, through June 30, 2004.
The State agency overstated the Federal share of foster care and adoption assistance costs
by $2.4 million by improperly claiming for: 26 training courses that should not have been
charged to Title IV-E, 59 administrative courses that did not meet the requirements for enhanced
reimbursement but were eligible for reimbursement at the 50-percent rate, and central office
administration costs that did not meet the requirements for enhanced reimbursement but were
eligible for reimbursement at the 50-percent rate.
We recommended that the State:  (1) make a financial adjustment of $2.4 million on
its next quarterly Report of Expenditures, (2) establish procedures to ensure that only qualified
training expenses are claimed at the enhanced rate, and (3) review training costs for Federal
reimbursement after the audit period to ensure compliance with Federal requirements.  The
State agency agreed with our recommendations and said it was taking appropriate corrective
action.